FILED
SEP 3 0 2019
OFFICE OF THE CLERK
SUPREME COURT. U,S.

3fa

Supreme Court of tfje fflmteb ££>tate$
MICHAEL J. SANDS,
Pro Se Petitioner,
v.
MEGAN J. BRENNAN, POST MASTER GENERAL,
UNITED STATES POSTAL SERVICE,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

Michael J. Sands
Pro se Petitioner
36995 McKinnley Dr.
Bldg. 6, Apt. 104
Westland, MI 48185
(313) 587-4396

$

n If
1

QUESTIONS PRESENTED
1. Did the United States Postal Service violate
my Constitutional Rights when the Postal Service
chose my mental diagnosis (difference of Medical Opin­
ion between my psychiatrist and their contract psychi­
atrist) and then forced me to take anti-psychotic
medication(s) and receive treatment for a mental con­
dition that I do not have as a condition of my further
employment with the Postal Service, denying me my
due process and equality under law, which resulted in
the sole reas on of my termination and loss of my home?
2. Does this Court find that making false and
purposeful misleading statements to a Psychiatrist to
be a form of Medical Fraud, when those statements are
used by the Psychiatrist to diagnose a person with a
mental disability?

11

LIST OF PARTIES
The parties to the proceeding in the United States
Court of Appeals for the Sixth Circuit were Pro se Pe­
titioner Michael J. Sands and Respondent Megan J.
Brennan, Post Master General, United States Postal
Service.
RELATED CASES
•

EEOC Cases IJ-482-0009-15, IJ-483-0030-13
and IJ483-0041-10.

•

Sands v. Brennan, No. 2:16-cv-12860 and Case
No. 2:17-cv-10631 U.S. District Court for the
Eastern District of Michigan. Judgement en­
tered July 26th of 2018.

•

Sands v. Brennan, Case No. 2:16-cv-12860,
U.S. District Court for the Eastern District,
MI. Judgement entered September 13th of
2018.

•

Sands v. Brennan, Case No. 18-2186 United
States Court of Appeals for the Sixth Circuit.
Judgement entered March 13th of 2019.

•

Sands v. Brennan, Case No. 18-2186 United
States Court of Appeals for the Sixth Circuit.
Petition for Re-Hearing, En Banc, denied.
Judgement entered July 2nd of 2019. Re­
ceived July 6th of 2019.

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.................................

1

LIST OF PARTIES.................................................

11

RELATED CASES..................................................

li

TABLE OF CONTENTS........................................

in

TABLE OF AUTHORITIES...................................

IV

PETITION FOR WRIT OF CERTIORARI...........

1

OPINIONS BELOW................................................

1

JURISDICTION......................................................
CONSTITUTIONAL PROVISIONS INVOLVED ...

2

STATEMENT OF THE CASE...................

3

REASONS FOR GRANTING THE WRIT

11

CONCLUSION............................. ..............

17

2

APPENDIX
Order of the United States Court of Appeals for
The Sixth Circuit Court (March 13, 2019)..... App. 1
Opinion and Order of The United States District
Court, Eastern District of Michigan (Sept. 13,
2018).................................................................. App. 6
Recommendation and Report of The United
States District Court, Eastern District of
App. 12
Michigan (July 26, 2018)
Denial of Petition for Rehearing En Banc (July
App. 31
2, 2019)

IV

TABLE OF AUTHORITIES
Page
Cases
Chavez v. Martinez, 538 U.S. 760 (2003)..............

13

Cleveland Board of Education v. Loudermill, 470
U.S. 532 (1985).......................................................

15

Cruzan v. Director, Missouri DMH, 497 U.S. 261,
110 S. Ct. 2841(1990)..........................................

13

Gomez v. Toledo, 446 U.S. 635 (1980)....................

11

Jurasek v. Utah State Hospital, 158 F.3d 506
(10th Cir. 1998).......................................................

11

Morgan v. Rabun, 128 F.3d 694 (8th Cir. 1997).....

11

Rennie v. Klein, 462 F. Supp 1119 (1982) 720
F.2d 266 (3d Cir. 1983)......................................... 4,11
Union Pacific Railroad Co. v. Botsford, 141 US.
250(1891)...............................................................

13

United States v. Weston, 255 F.3d 873 (D.C. Cir.
2001)........................................................................

12

Washington v. Harper, 494 U.S. 210, 110 S.Ct.
1028(1990).......................................... ..................

12

Youngberg v. Romeo, 457 U.S. 307, 102 S. Ct.
2452(1982).............................................................

4

Constitutional Provisions
U.S. Constitution, Amendment V.............

2

U.S. Constitution, Amendment XIV.........

2

V

TABLE OF AUTHORITIES - Continued
Page
Statutes
28 U.S.C. § 1254(1)

2

42 U.S.C. § 1983 ....

2

Other Statutes
29 U.S.C. § 701 et seq - Section 501 of the Reha­
bilitation Act.......................................................

10

29 CFR § 825.307 - Family Medical Leave Act..,

10

1
PETITION FOR WRIT OF CERTIORARI
I, Michael J. Sands, a citizen with PTSD who is
part of a protected group that being a person(s) with a
mental disability, respectfully petitions this Court for
a writ of certiorari to review the judgement of the
United States Court of Appeals for the Sixth Circuit.

OPINIONS BELOW
United States District Court Eastern District of
Michigan Southern District, Case No. 16-12860, Mag.
Judge R. Steven Whalen filed judgement in favor of the
United States Postal Service on July 26th of 2018.
United States District Court Eastern District of
Michigan Southern Division, Case No. 16-12860, Judge
Mark A. Goldsmith filed judgement in favor of the
United States Postal Service on September 13th of
2018.
United States Court of Appeals for the Sixth Cir­
cuit, Case No. 18-2186 Circuit Judges Moore, Gilman
and Donald filed judgement in favor of the United
States Postal Service on March 13th of 2019.
United States Court of Appeals for the Sixth Cir­
cuit, denial of Petition for rehearing, En Banc filed on
July 2nd of 2019 and received on July 6th of 2019.

2

JURISDICTION
The Sixth Circuit Court of Appeals ruled against
me on September 13th of 2019 and refused my Petition
for Rehearing, En Banc on July 2nd of 2019.1 invoke
this Court’s jurisdiction under 28 U.S.C. § 1254(1) and
42 U.S.C. § 1983, having timely filed this petition for a
writ of certiorari within ninety days of United States
Court of Appeals for the Sixth Circuit, July 2nd 2019
ruling.

CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or
otherwise infamous crime unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces or in the Militia, when in ac­
tual service in time of War or public danger; nor shall
any person be subject for the same offense to be put
twice in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for
public use without just compensation.
United States Constitution, Amendment XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citi­
zens of the United States and of the State wherein they
reside. No State shall make or enforce any law which

3
shall abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive any per­
son of life, liberty or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.

STATEMENT OF THE CASE
Question 1: Did the United States Postal Service
violate my Constitutional Rights when the Postal Ser­
vice chose my mental diagnosis (difference of Medical
Opinion between my psychiatrist and their contract
psychiatrist) and then forced me to take anti-psychotic
medication(s) and receive treatment for a mental con­
dition that I do not have as a condition of my further
employment with the Postal Service, denying me my
due process and equality under law, which resulted in
the sole reason of my termination and loss of my home.
The ruling of the Sixth Circuit Court of Appeals in
my case, is in direct conflict with U.S. Supreme Court
Rulings and with the rulings of other U.S. Circuit
Courts of Appeals Rulings on the exact same issue.
This Court and other Circuit Courts have long
held that the right to refuse medical treatment, specif­
ically psychiatric medication(s) is a fundamental right
of Liberty and is protected under our Constitutional
Rights.
The importance of my case cannot be understated,
if allowed to stand would not only violate my

4
Constitutional Rights, but would strip Persons with
Mental Disabilities of their Constitutional Rights and
possible affect all federal employees if their respectful
agencies for which they work are allowed to choose not
only their medical diagnosis but also force treatment
and medications on them, as a condition of further em­
ployment,
In Rennie v. Klein, U.S. 1119 (1982) on remand 720
F.2d 266 (3rd Circuit Court 1983). The Third Circuit
Court categorically recognized this be a constitution
Right and the Supreme Court (this court) granted a
writ of certiorari in the case citing Youngberg v. Romeo,
457 U.S. 307,102 S. Ct. 2452 (1982).
BRIEF STATEMENT OF THE CASE
The United States Postal Service through its repre­
sentatives committed Medical Fraud and violated my
Constitutional Rights.
When it directly retaliated against me and forced
me to attend a Psychiatric Fitness for Duty Exam on
March 3rd of 2011. On March 3rd of 2011,1 was under
Psychiatric Care, Psychiatrist Dr. Luis Pomodoro MD.,
was my psychiatrist who treated me for PTSD from
August 2009 through March 2012.
I had an active FMLA Case for the treatment of
PTSD which was approved by the United States Postal
Service on Dec. 13th of 2010.
The Postal Service chose my medical diagnosis
from the difference of medical opinion between their

5
contract psychiatrist, Dr. Kron and my own psychia­
trist, Dr. Luis Pomodoro. This lead to my termination
for attendance.

FACTS OF THE CASE
I am a competent person with PTSD. I experienced
my second PTSD breakdown (12-08) at my place of em­
ployment, the United States Postal Service’s Priority
Mail Center located in Romulus, ML During which
time, I was harassed and tormented by USPS Manager
Tim Robertson who not only allowed employees to do
this, he actually joined in. The reason that this hap­
pened was that I got into a staffing argument with
USPS Manager Tim Robertson. I wanted the vacated
positions filled to elevate the stress that I was under.
The loss of my sister, Nancy to cancer and working in
a very under staffed working conditions lead to my sec­
ond PTSD breakdown. Jerry Barnwell a former em­
ployee wanted to continue to receive overtime pay for
work that he was not qualified to do, nor had he the
right to do under our National Agreement (contract)
and under OSHA.
This harassment grew worse as I was recovering
and on August 7th of 2009,1 was sexually assaulted by
Jerry Barnwell in front of USPS Managers Tim Rob­
ertson and Debbie Gruschow. I filed my first EEOC
Case in April of 2010 and my sexual assault was listed
in my complaint, along with the harassment and tor­
ment that I endured the night of my breakdown and
during my recovery.

6
On June 9th of 2010, during EEOC Mediation,
USPS Manager Tim Robertson openly admitted that
he witnessed my PTSD Breakdown, he denied any and
all involvement in my sexual assault.
In January of 2011, USPS Manager Tim Robert­
son came to my place of employment (USPS Priority
Mail Center) and began to harass and torment me
again. He did not hold a position there and his pres­
ence was not a business necessity. This is proven by his
own sworn affidavits, that “he came on visits”.
I had recovered to the point at that time that I was
able to resume my duties as Maintenance Union Stew­
ard. I handled the situation professionally and appro­
priately, I filed grievances in which I stated that I was
sexually assaulted and did not need the added stress
of once again being harassed and tormented by USPS
Manager Tim Robertson. And asked that Tim Robert­
son be barred from being in the plant while I was work­
ing there.
Those grievances were then used in direct retalia­
tion by the United States Postal Service. The Postal
Service did not investigate my sexual assault, nor did
the Service investigate my continued harassed and tor­
ment at the hands of USPS Manager Tim Robertson.
Instead, the United States Postal Service used my
grievances that are supposed to be a protected activity
as grounds for forcing me to attend a Psychiatric Fit­
ness for Duty Exam.
USPS Managers Jackie Bowman who was the
Plant Manager on the night of my second PTSD

7
breakdown (12-08) and Tim Robertson made false and
purposeful misleading statements which were given to
USPS Contract Psychiatrist Dr. Kron who then used
them to make a psychiatric medical opinion that to­
tally contradicted my psychiatrist. Kron’s opinion was
made on March 7th of 2011.
Dr. Kron’s Psychiatric Medical Opinion stated that
I was unfit for duty and needed antipsychotic medica­
tion and treatment for a “psychosis”. This psychosis, in
Dr. Kron’s opinion is that the events of what I am say­
ing happened, didn’t happen, that I am delusional.
This is based off the denials of two USPS Manag­
ers (Bowman and Robertson) who are in a position of
authority and public trust.
Their denial of the facts as explained by my psy­
chiatrist, Dr. Luis Pomodora, is a form of medical fraud
because it presents to their psychiatrist, Dr. Kron, that
in Jan of 2011 that I had an epiphany that I was sex­
ually assaulted two years earlier, harassed and tor­
ment during my Dec 2008 breakdown, that it
continued during my breakdown. Hence, I have a psy­
chosis and am delusional, unfit for work.
These facts lead to Question 2, Does this Court
find that making false and purposeful misleading
statements to a psychiatrist to be a form of Medical
Fraud, when that psychiatrist uses those statements
in make a person’s mental diagnosis.
I could find no case law, to support this position.
However, I argue that it is. Dr. Pomodoro explained it

8
to me, a psychiatrist does not use tests commonly used
in the medical field such as x-rays, blood tests etc. in
making a psychiatrist medical diagnosis. Psychiatrists
making diagnosis by what they see, hear and read.
Dr. Kron did not take into account that I was al­
ready under psychiatric care, Psychiatrist, Dr. Luis Pomodoro, MD treatment me for PTSD from August of
2009 through March of 2012. Or that I had an active
FMLA Case for his treatment of PTSD at the time of
Dr. Kron’s exam.
Dr. Pomodoro’s treatment did not include or re­
quire any type of psychiatric medication(s) and that I
could work without any restrictions as stated on my
FMLA forms which were turned into the United States
Postal Service. The Service granted my FMLA protec­
tions on Dec 13 of 2010.
The United States Postal Service through its rep­
resentatives then chose Dr. Kron’s Opinion over that of
my own psychiatrist, Dr. Pomodoro and forced me to
take anti-psychotic medications, prove compliance via
monthly blood samples and receive treatment for a
psychosis that I do not have as a condition of my fur­
ther employment.
I had multiple Psychiatric Medical Releases that
allowed my return to work, two of them were from Psy­
chiatrist Dr. Howard Shapiro, MD of the Ann Arbor
Veteran’s Hospital who in 2013 gave me a full psychi­
atric exam and reviewed Dr. Kron’s and Dr. Pomodoro’s
Psychiatrist Medical Opinions.

9
Dr. Shapiro agreed with Dr. Pomodoro’s Opinion
and gave me a psychiatrist medical release to return
to work without the need of psychiatric medication(s)
and without any restrictions.
The United States Postal Service denied my re­
turn stating that I have to follow the opinion that they
chose that being Dr. Kroon’s Opinion.
Dr Howard Shapiro reviewed my psychiatrist rec­
ords and evaluated me again in 2015 and again the
United States Postal Service denied my return.
This action by the United States Postal Service re­
sulted in my termination for attendance (1-15) solely
because I was not allowed to return.
Prior to being barred from returning to work, I had
no problems with attendance. I never received any dis­
ciplinary action for attendance, conduct or work prac­
tices. I did my work without ever one complaint.
I never threatened anyone, acted violently against
anyone or disrupted the day to day business of the
United States Postal Service.
This fact is also proven by the sworn affidavits and
statements of not only my supervisor Glen Kirn but
also by the managers who are involved in this case be­
fore the court who state that they had no problems,
that I was a good mechanic who did his job.
After I lost my job, I received worker compensation
from Jan of 2012 to Nov. 2012. At that time, I found a
job doing the same work that I was doing in the Postal

10
Service, working as a Maintenance Technician with
the help of a job recommendation from my USPS Su­
pervisor Glen Kirn and have been working as a
Maintenance Technician ever since with no breaks in
employment history with another employer.
This was done in clear violation of Section 501 of
the Rehabilitation Act of 1973. Which states in part
that it is a discriminatory act to terminate an em­
ployee, who can perform the essential functions of
his/her job. I performed all essential functions of my
position and did so without one complaint of my job
performance. The United States Postal Service had no
right to question my sanity when I sought justice for
the crimes that were committed against me by its rep­
resentatives.
As it pertains to Family Medical Leave Act 29 CFR
825.307. The United States Postal Service had no rea­
son to question my certification, I was doing my job,
professional and correctly. I had no disciplinary actions
brought against me for conduct, work practices or at­
tendance. The Postal Service was fully aware that I
was pursuing justice for the crimes that were commit­
ted against me.
Furthermore, second opinions which Dr. Kron’s
opinion is, is not binding me. The Postal Service had no
right to interfere with my psychiatrist, Dr. Luis Pomodoro MD’s treatment regiment. Just as my leave is pro­
tected so is my treatment and even if there was a third
opinion granted that would only deny my leave, it
would not override my Constitutional Right of Liberty.

11
Lastly, the United States Postal Service can termi­
nate an employee under the Disciplinary Actions for
conduct, work practices and attendance as outlined in
our National Agreement. And the employee has the
right to file grievances and have his/her day in Court
at every step of the process. This was denied to me.

REASONS FOR GRANTING THE WRIT
A. To avoid erroneous deprivations of the Con­
stitutional Rights of others with mental dis­
ability and to correct the injustices that I
have faced having been stripped of my
rights granted in the 5th and 14th Amend­
ments. That the ruling from the Sixth Cir­
cuit Court of Appeals in my case is in
conflict with not only Supreme Court Rul­
ings but from other Circuit Courts as well.
In Rennie v. Klein, 462 F. Supp. 1131 (D.N.J.
1978) U.S. 1119 (1982), on remand, 720 F.2d 266 (3rd
Circuit 1983). The Court found that an involuntarily
committed mental patient who has not been found in­
competent, absent an emergency, has a qualified con­
stitutional right to refuse psychotropic medication.
The Third Circuit Court categorically recognized this
to be a constitutional right.
This Constitutional Right was also protected in
the following Circuit Court rulings Gomez v. Toledo,
446 U.S. 635 (1980) Morgan v. Rabun, 128 F.3d 694 (8th
Circuit 1997) Jurasek v. Utah State Hospital, 158 F.3d

12
506 (10th Circuit Court 1998) United States v. Weston,
255 F.3d 873 (D.C. Circuit 2001)
I have a constitutional right to refuse the medical
directive made by the United States Postal Service,
who attempted to force me to take antipsychotic medication(s). I followed the treatment regimen of my psy­
chiatrist, Dr. Luis Pomodora, MD, who determined that
I did not require any type of psychiatric medication(s).
In an internal email, the Detroit Medical Director,
Dr. Parulakar stated that she had received the psychi­
atric medical opinion of Dr. Kron, contract psychiatrist
for the United States Postal Service and was waiting
for Human Resource Manager Lee Ward’s directive be­
fore taking any action. His directive violated my Con­
stitutional Rights granted me in the 5th and 14th
Amendments.
The U.S. Supreme Court in Washington v. Harper,
492 U.S. 210, 110 S. Ct. 1028 (1990) “determined that
a person’s interests are better served by medical pro­
fessionals and not judges”. I argue that this line of rea­
soning should also apply to all federal agencies.
The Postal Service has no right or legal authority
to make medical decisions and disregard the medical
opinions of my psychiatrist, Dr. Pomodora or the Psy­
chiatric Medical Opinion of Psychiatrist, Dr. Howard
Shapiro MD. From the Ann Arbor Veteran’s Hospital
and deny my return to work.
Dr. Shapiro reviewed the opinions of both Dr. Po­
modora and Dr. Kron and did a full psychiatric exam

13
of me and determined that I could return to work with­
out the need of any psychiatric medication(s). 2013 and
2015.
The United States Postal Service violated my Lib­
erty when it chose my medical diagnosis. I could not
and would not take psychiatric medications for a con­
dition that I do not have, I followed the treatment of
my psychiatrist, Dr. Louis Pomodora MD.
Cruzan v. Director, DMH 497 U.S. 261 (1990)
stated in part that “the principle that a competent per­
son has a constitutionally protected liberty interested
in refusing unwanted medical treatment”.
In Union Pacific Railroad Co v. Botsford, 141 U.S.
250, 251 (1891) stated in part that “No right is held
more sacred or more carefully guarded by the common
law, than the right of every individual to the procession
and control of his own person, free of restraint and in­
terference of others unless by clear and unquestiona­
ble authority of law”.
In Chavez v. Martinez, 538 U.S. 760, 775 (2003).
(“The Court held that the Due Process Clause also
protects certain “fundamental liberty interest(s) from
deprivation by the government, regardless of the pro­
cedure provided, unless the infringement is narrowly
tailored to serve a compelling state interest. Washing­
ton v. Glucksberg, 521 U.S. 702, 721 (1997)
In my case, the United States Postal Service had
no compelling interest other than direct retaliation.
There was no basis or grounds for forcing me to attend

14
a psychiatric fitness for duty exam, again the United
States Postal Service was fully aware in April of 2010
that I was seeking justice for my sexual assault. USPS
Manager Tim Robertson was personally aware on June
9th of 2010 during EEOC Mediation and as a human
being and citizen of the United States, I have the right
to express emotion just as everyone else does. My Con­
duct never even warranted disciplinary action(s).
In cases of violent or threatening acts or acts that
disrupt the day to day business, the United States
Postal Service can under our contract immediately
place an employee under emergency placement and
have the employee escorted off the premises pending
an investigation which could result in termination.
I worked every day that I was scheduled to for a
full two months after being once again harassed and
tormented by USPS Manager Tim Robertson. He did
this in Jan of 2011, I filed grievances against him.
Those grievances were used as to the sole reasoning for
being sent to a psychiatric fitness for duty exam. I
worked every day as scheduled until March 7th of 2011
which is the day that the United States Postal Service
received Dr. Kron’s psychiatric medical opinion and
had me escorted out of the building, denying my re­
turn, despite having several medical releases approv­
ing my return to duty.
The United States Postal Service in violating my
Constitutional Right to Liberty also violated my con­
stitutional rights to Life and Property.

15
They infringed on my right to Life by denying me
the right to make a living, after all one’s quality of Life
is based on the ability to make a living. The financial
hardship that this brought cannot be overstated or
looked over.
As for violating my constitutional right to Prop­
erty, I have a vested interest in my job and have due
process rights. And the infringement of my constitu­
tional right to Life also directly lead to my constitu­
tional right to Property, being violated again, unable to
make a living, I lost my home to foreclosure.
The U.S. Supreme Court ruled on this issue in
Cleveland Board of Education v. Loudermill, 470 U.S.
532 (1985) finding in part “that government employees
are considered to have a property interests in their jobs
and have the right to due process”.
Under the National Agreement (contract) between
the United States Postal Service and the American
Postal Workers Union.
1.

When there is a difference of Psychiatric Med­
ical Opinions in fitness for duty examinations,
I am to be placed on paid administrative leave
and my case is to be turned over to OWCP for
determination. United States Postal Service
Employee Labor Relations Manual §§ 545.64
and 568.124.

2.

I was fired for Attendance; Attendance is cov­
ered under Disciplinary Actions. Disciplinary
Action is to be corrective and not punitive in
nature starting with a letter of warning, then

16
suspensions, 7-day 14-day working up to and
ending in termination.
At each step, an employee is given his day in
court. And the right to file a grievance against
the action, at each step this process was de­
nied to me. I was barred from returning to
work for 4 years and then fired for attendance
for not being there. This action denied my
rights under the grievance/arbitration pro­
cess as defined in Article 15 and 16 of our con­
tract.
3.

The Postal Service also has a moral and con­
tractual duty to provide me with a safe and '
healthy work environment. To investigate all
crimes brought to its attention, Neither of
these were done, the Postal Inspectors told me
that it is an Administrative Decision as to
whether or not they will investigate.

17
CONCLUSION
For the foregoing reasons, I, Michael J. Sands Pro
se Petitioner, respectfully requests that this Court is­
sue a writ of certiorari to review the judgement of the
United States Court of Appeals for the Sixth Circuit.
Originally Filed: September 27, 2019
Re-filed: December 3, 2019
Respectfully submitted,
Michael J. Sands,
Pro se Petitioner
36995 McKinnley Dr.
Bldg. 6, Apt. 104
Westland, MI 48185
(313) 587-4396

